                                                                                                                -
                                                  NATIONAL SCIENCE FOUNDATION
  :
  @ .                                              OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS
 z
  .
  4
                                            CLOSEOUT MEMORANDUM
       or o

 Case Number: A07030016                                                                      Page 1 of 1



                 We received an allegation that the subject1had copied a small amount of text fiom an NSF
         research proposal that was availabl'e online into his own NSF proposal.2 We identified substantially
         similar text contained in the source document and the Subject's proposal. We contacted the Subject
         to obtain his perspective on the matter. The Subject was forthcoming and explained that the few
         lines of identical text were those that remained fiom using the alleged source document, as well as
         others, to form a template for his proposal. He was contrite and admitted to the mistake, though
         qualifying the mistake as unintentional.

         Based on the subject's response, and the fact that the amount of plagiarism was small, we believe
         that no fiuther action is necessary. Accordingly, this case is closed.




                           I




..""    -     ,..   --\
